           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Shutdown of the                                               Date:    January 9, 2003
           Transportation Computer Center, TASC
           FI-2003-010
  From:    Alexis M. Stefani                                                            Reply to
                                                                                        Attn. of:   Meche: x61496
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Deputy Secretary
           Assistant Secretary for Budget and Programs
             and Chairwoman, TASC Review Board
           Assistant Secretary for Administration

           This report presents our audit results on a Hotline complaint alleging that (1) the
           Transportation Administrative Service Center (TASC) continued operating the
           Transportation Computer Center (TCC) after Congress recommended that it be
           shut down and (2) TASC was using unlicensed software on the TCC computers.
           Our audit objective was to determine whether these allegations were valid. Our
           scope and methodology are discussed in Exhibit A.

           INTRODUCTION
           In 1974, the Department of Transportation (DOT) began using TCC to provide
           computer services to some DOT Operating Administrations. Major users included
           the Federal Highway Administration, Federal Transit Administration, Bureau of
           Transportation Statistics, and the U.S. Coast Guard.

           During 1997, we reviewed TASC operations and found that TCC was not operated
           cost-effectively. We found that TCC did not have enough business to operate at
           the level that the Office of Management and Budget considered cost-effective.
           Therefore, we recommended that TCC operations be discontinued.1 In July 1998,
           the House of Representatives, Committee on Appropriations also recommended


           1
               Report on the Transportation Administrative Service Center, Report Number MA-1998-073, February 5, 1998.
                                                                                                            2

that TCC be eliminated and that DOT Operating Administrations be permitted to
procure similar services from other Governmental or private providers.

Our followup report in March 19992 found that while some progress was made,
TCC's efficiency remained substantially below other comparable centers and
TCC's billing rates remained two to six times higher than another Government
computer data center. In March 2000, TASC advised DOT customers that it
would shut down TCC. By July 2000, all DOT customers had moved their
application systems from TCC to other processing sites.

In February 2002, DOT appointed a TASC Review Board, chaired by the
Assistant Secretary for Budget and Programs. The Review Board was to review
TASC operations and make recommendations for improvement.

RESULTS
After all DOT customers moved their application systems from TCC, we found
that TASC spent about $1.4 million on the TCC computer software and hardware.
However, TASC had no customers for the computer services. Specifically,

       · In October and December 2000, TASC spent about $900,000 to purchase
         two computers that had been the principal processing units in TCC. Before
         the shutdown of TCC, these computers were leased to TASC, and
         according to the vendor, they could have been returned in July 2000 with
         no penalty.

       · In conjunction with purchasing the computers, TASC spent $524,000 to
         extend licenses for software products.

Although TCC was shut down, the TASC Director stated that TASC purchased the
computers and extended the software licenses because TASC had already spent
funds for leasing the computers and planned to use this equipment for new
business opportunities.3 However, TASC could not provide a DOT-approved plan
for use of these computers after TCC was shut down.

TASC is a fee-for-service organization that does not receive direct appropriations
from Congress. TASC finances its expenses using DOT's administrative working
capital fund, then bills internal and external clients for services provided.
According to TASC, it has not conducted any customer business on or generated
2
    Report on TASC Computer Center, Report Number MA-1999-062, March 3, 1999.

3
 Between January and March 2001, TASC tested the Linux operating system on the TCC computer for possible
business applications. In 2002, TASC also approached the Transportation Security Administration to explore its
possible use of computer services.
                                                                                  3

any revenue from the computers since TCC was shut down in July 2000. We
found that TASC billed the $1.4 million to the existing TCC customers as part of
TCC closeout costs.

Unable to attract new customers for its computer services, TASC informed us that
it planned to sell the computers. However, TASC provided no evidence to support
this claim. Federal regulations provide that excess Government equipment first be
made available for donation to a Federal, state, or local Government agency. If
there are no requests for donations, the equipment then can be sold competitively
by DOT or through the General Services Administration (GSA). We found no
evidence that TASC had contacted GSA.

Because of rapid changes in technology, sale of these computers today would
likely yield a low dollar value return. Specifically, the vendor who sold the
computers to TASC for about $900,000 stated that it no longer markets this
equipment. According to the vendor, the current value of one computer was about
$61,000, and there was no market for the other.

Notwithstanding congressional direction, DOT's announcement that TCC was shut
down, and with no paying customers for computer services, TASC unilaterally
decided to buy this computer equipment rather than return the leased equipment to
the vendor after all DOT customers moved from TCC. This decision resulted in a
waste of $1.4 million of DOT funds.

Based on our findings, TASC was ordered to dispose of the TCC computers,
which it did by donating the equipment to the Federal Bureau of Investigation. In
commenting on this report, the Deputy Secretary stated that the decision to buy the
leased computers, which proved to have little or no resale value, rather than return
them to the vendor represented an inappropriate decision reflecting extremely poor
business judgment by TASC and that it was inappropriate for TASC to pass the
charges to DOT customers as part of TCC shutdown costs.

The Deputy Secretary also stated that TASC's decision to purchase the TCC
computers and software was illustrative of broader structural problems regarding
the TASC business model and organizational structure that lacked clarity and
focus on DOT core competencies, which is why the Secretary ordered a
fundamental restructuring of TASC.

The Secretary decided to abolish TASC as a separate entity. DOT is conducting a
thorough review of all ongoing TASC business, assessing internal administrative
requirements, and implementing reforms that will require the use of more
business-like principles, the establishment of a rigorous cost accounting system,
and obtaining independent financial audits annually. The Deputy Secretary's
comments are summarized on page 4 and the complete text is in the Appendix.
                                                                                  4


RECOMMENDATIONS
We recommend that the Deputy Secretary of Transportation require the Assistant
Secretary for Administration, in coordination and agreement with the TASC
Review Board, to:

1. Direct TASC to dispose of the TCC computers and associated equipment.

2. Determine who should be held accountable for purchasing the computers and
   take administrative action, if appropriate.

3. Notify the House Appropriations Committee of TASC's actions after the
   shutdown of TCC and actions DOT plans to take concerning the circumstances
   discussed in this report.

MANAGEMENT COMMENTS
A draft of this report was provided to the Deputy Secretary, Assistant Secretary for
Budget and Programs, and the Assistant Secretary for Administration on
August 27, 2002. The Deputy Secretary responded on December 20, 2002, and
provided the following comments.

     The decision to buy leased computers rather than return them to the
     vendor with no penalty represented an inappropriate decision reflecting
     extremely poor business judgment by TASC. DOT agrees that it was
     inappropriate for TASC to pass the charges to DOT customers as part
     of TCC shutdown costs, particularly since the purchase was intended to
     support business opportunities with agencies outside DOT. Regarding
     the report's recommendation to dispose of the computers and associated
     equipment, TASC donated the computers and equipment to the Federal
     Bureau of Investigation in October 2002.

     TASC's decision to purchase the TCC computers and software illustrate
     broader structural problems regarding the business model and
     organizational structure under which TASC was operating. At that
     time, TASC's mission lacked clarity and focus on DOT core
     competencies. TASC's ambition to operate as a service provider for
     other agencies and thus lower the cost of internal DOT administrative
     services never materialized.
                                                                                5

     Based on recommendations of the Review Board, the Secretary's own
     observations of TASC operations, and a series of audit reports by the
     Office of Inspector General, the Secretary concluded that more
     fundamental structure and management changes were needed in TASC.

     The Secretary decided to abolish TASC as a separate entity within
     DOT and transferred the majority of its employees to the Office of the
     Assistant Secretary for Administration, with a smaller number of
     employees now reporting to the Department's Chief Information
     Officer. The position of Director of TASC has been abolished. DOT is
     conducting a thorough review of all ongoing TASC business and
     assessing internal administrative support requirements.

     The Department's General Counsel reviewed whether the decision to
     purchase the TCC computers violated statutory restrictions, Department
     rules or called for disciplinary actions of any sort. After an extensive
     review, the General Counsel found no such violations and has not
     recommended disciplinary action for any individual.

     DOT has notified the appropriate Congressional committees regarding
     the fundamental reforms that the Secretary has implemented.

The complete text of the Deputy Secretary's comments is in the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE
Actions taken and planned by DOT are reasonable. These issues are resolved,
subject to the followup requirements in DOT Order 8000.1C.

We appreciate the courtesies and cooperation of DOT and TASC representatives.
If you have questions concerning this report, please call me at (202) 366-1992 or
John Meche at (202) 366-1496.

                                       -#-
                                                                            6


EXHIBIT A. SCOPE AND METHODOLOGY

We interviewed TASC and product vendor representatives for the TCC computers.
We obtained and reviewed TASC procurement documentation, examined vendor
invoices, and reviewed TCC hardware and software inventory reports and
correspondence regarding the TCC shutdown.

Because most TCC system support personnel are no longer employed by DOT,
our review was limited to interviews of available personnel and reviews of
existing documents to determine whether TASC provided any customer services
on the computers after TCC was shut down in July 2000. We contacted the
equipment vendor and the General Accounting Office to determine whether there
was a method to analyze TCC computer usage since July 2000.

We performed our audit during May and June 2002 at DOT Headquarters in
Washington, D.C. The audit was conducted in accordance with Government
Auditing Standards prescribed by the Comptroller General of the United States.
                                                         7


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


 THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



      Name                         Title_______

    Rebecca Leng              Program Director
    Michael Marshlick         Project Manager
    Gary Klauber              Computer Scientist
    Thomas Lehrich            Associate Counsel
                           Deputy Secretary of Transportation
                              U.S. DEPARTMENT OF TRANSPORTATION
                                      400 7th Street, S.W.
                                    Washington, D.C. 20590




                            M E M O R A N D U M
                                    December 20, 2002


TO:            INSPECTOR GENERAL KEN MEAD

FROM:          MICHAEL P. JACKSON

SUBJECT:       Response to Draft Report, "Shutdown of the Transportation Computer
               Center"

_____________________________________________________________________________


The Department appreciates the opportunity to respond to the Office of Inspector General
(OIG) draft report on “Shutdown of the Transportation Computer Center.” I’d like to
address three issues with this memorandum: (1) the specific matters related to the
Transportation Computer Center that are raised by your draft report; (2) Secretary Mineta’s
broader concerns about the business model and organizational structure under which the
Transportation Administrative Service Center (TASC) has, until recently, operated; and (3)
steps that the Department has taken to address both the specific and broader concerns.

Transportation Computer Center. The Department directed the shutdown of the
Transportation Computer Center (TCC) operated by TASC in response to OIG reports in
February 1998 and March 1999, which found TCC was not operated cost-effectively. In
addition, the House Committee on Appropriations in July 1998 recommended as follows:

        The Committee's recommendation eliminates the transportation computer
        center within the transportation administrative service center and permits
        the operating administrations to procure similar services from other
        governmental or private providers.

The Department subsequently ordered the TCC to be shut down, but did not implement this
closure until early 2000, apparently in part because of the need to focus on fixing Year-
2000 computer problems. However, as you reported, TASC procured the TCC computers
and software licenses after the shutdown decision, spending more than $1 million between
October and December 2000.
The decision to buy leased computers, which proved to have little or no resale value, rather
than return them to the vendor with no penalty represented an inappropriate decision
reflecting extremely poor business judgment by TASC.

Reassessing the TASC mission. TASC's motivation to buy the computers appears to have
been the desire to attract business from agencies outside DOT. That business never
materialized. We agree with your report that it was inappropriate for TASC to pass the
charges to DOT customers as part of TCC shutdown costs, particularly since the purchase
was intended to support business opportunities with agencies outside DOT and would not
be used for DOT customers.

TASC’s decision to purchase the TCC computers and software illustrate broader structural
problems regarding the business model and organizational structure under which TASC
was operating. At that time, TASC’s mission, in our opinion, lacked clarity and focus on
DOT core competencies. Its ambition to operate as a service provider for other agencies
and thus lower the cost of internal DOT administrative services never materialized.

Secretary Mineta restructures TASC. As you know, in February 2002, DOT appointed a
TASC Review Board, chaired by the Assistant Secretary for Budget and Programs, to
review the full range of TASC operations. This was done following a preliminary
assessment in the Fall of 2001 by Office of the Secretary staff assisted by you and your
staff. Based on the recommendations of the Review Board, his own observations of TASC
operations, and a series of audit reports by your office, the Secretary concluded that more
fundamental structure and management changes were needed in TASC.

The Secretary decided to abolish TASC as a separate entity within the Department. We
have transferred the majority of its employees to the Office of the Assistant Secretary for
Administration, with a smaller number of employees now reporting to the Department’s
Chief Information Officer. The position of Director of TASC has been abolished. We are
conducting a thorough review of all ongoing TASC business and assessing internal DOT
administrative support requirements. This initial reorganization of assets will be completed
by the beginning of the new year.

In addition, we have begun implementing appropriate business reforms. These reforms
will require the use of more business-like principles, the establishment of a rigorous cost
accounting system to allocate costs appropriately, and independent financial audits each
year under the supervision of your office. While some of these measures may take some
time to implement, they will enhance accountability to the taxpayers and DOT customers.

Regarding the report's recommendation to dispose of the computers and associated
equipment, after receipt of your draft report TASC was directed to take immediate action.
In October 2002, TASC donated the computers and equipment to the Federal Bureau of
Investigation.

I further requested the Department’s General Counsel to review whether the decision to
purchase the TCC computers violated statutory restrictions, Department rules or called for
disciplinary actions of any sort. After an extensive review, the General Counsel has found
no such violations and has not recommended disciplinary action for any individual.

We have notified the appropriate Congressional committees regarding the fundamental
reforms that the Secretary has implemented regarding TASC.
